TN

C@OCKLE

: E-Mail Address:
Le ga 1 B a € fs contact@cocklelegalbriefs.com
st. 1923

1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

www.cocklelegalbriefs.com

No. 19-840

CALIFORNIA, ET AL.,
Petitioners,
v.
TEXAS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
44 COUNTIES, CITIES, AND TOWNS AND CALIFORNIA STATE ASSOCIATION OF
COUNTIES IN SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 6865 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of May, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

a Konee. Q. Bocas Quedraw be Gh

Notary Public (7 Affiant

 

My Comm. Exp. September §, 2023

 
